Department of Homeland Security
   Ofﬁce of Inspector General

             Review of the Department of Homeland 

                 Security’s Capability to Share 

                   Cyber Threat Information 


                          (Redacted) 





OIG-11-117                                    September 2011
                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                 September 29, 2011

                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

This report addresses the strengths and weaknesses of the Department’s capability to
share cyber threat information among its federal, state, local, and tribal governments and
private sector partners. It is based on direct observations and analyses of applicable
documents. We obtained additional supporting documentation through interviewing
personnel from selected federal agencies and companies in the private sector.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.




                                      Charles K. Edwards
                                      Acting Inspector General
ADDITIONAL INFORMATION AND COPIES


fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Oﬃce of Inspector General/MAIL STOP 2600,

       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
